Audit Report

Office of Community Oriented Policing Services
Methamphetamine Initiative Grants Administered by the Sioux City, Iowa Police Department

Audit Report No. GR-50-05-007


March 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of Methamphetamine Initiative grants awarded by the Office of Community Oriented Policing Services (COPS) to the Sioux City, Iowa Police Department (Sioux City PD).  The purpose of these grants is to provide training to assist state and local law enforcement agencies in reducing the production, distribution, and use of methamphetamine.  The Sioux City PD was awarded six grants, totaling $10,080,858 to assist the Sioux City PD in establishing and operating a regional training center providing law enforcement agencies with the training they need to help reduce methamphetamine laboratories and methamphetamine-related crimes in their areas.

We tested the Sioux City PDs compliance with essential grant conditions, including grant drawdowns, budget management and control, grant expenditures (including program income), and grant reporting and found that the grantee did not fully comply with the grant requirements.  As a result, we identified dollar-related findings totaling $1,177,952.1    Specifically, we found:

The grantee had excess drawdowns amounting to $9,663, and although the grantee requested that grants be officially closed and confirmed that no additional drawdowns were necessary, $134,729 remains available and should be deobligated.  

	The Sioux City PD transferred grant funds between cost categories in excess of ten percent of the grant funding without prior approval from the COPS Office.  This resulted in questioned costs of $501,177.

	The Sioux City PD conducted less-than-arms-length transactions with the City of Sioux City to lease vehicles and furniture.  These leases included $33,497 in interest that, according to Office of Management and Budget Circular A-87, entitled Cost Principles for State, Local, and Tribal Governments, is an unallowable expenditure.  Further, these leases resulted in the Sioux City PD actually purchasing the assets, which was not allowed by the COPS Office.  As a result, we question a total of $433,419.

	The Sioux City PD did not have adequate documentation to support various grant expenditures amounting to $78,792, primarily resulting from the grantees practice of destroying most records older than calendar year 2000.  

	The grantee incurred $13,720 of unapproved construction expenditures and charged it to the grant.  In addition, although such purchases are not allowed by the Office of Justice Programs Financial Guide, the Sioux City PD purchased shirts, mugs, and other promotional items for sale to training class participants.  The purchase of such items was neither requested of nor approved by COPS and we question the total cost of $6,452.  

	The Sioux City PD filed all 32 required Financial Status Reports (FSRs); however, 8 were not submitted in a timely manner.  The eight reports were filed between 11 and 263 days late.  In addition, the grantee only filed two Progress Reports.  

Our report contains 15 recommendations to address the preceding issues, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope, and methodology appear in Appendix I of the report.

We discussed the results of our audit with Sioux City PD officials and have included their comments in the report, as applicable.  In addition, we provided the grantee and the COPS Office with a draft of our audit report and have included their responses in the final report.
  



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.